HHS/OIG-Audit--"Physical Security over Data Processing Operations at the Centers for Disease Control and Prevention, (A-04-92-03501)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Physical Security over Data Processing Operations at the Centers for Disease Control and Prevention," (A-04-92-03501)
July 5, 1994
Complete
Text of Report is available in PDF format (1.86 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Centers for Disease Control and Prevention (CDC) had not
placed enough importance on ensuring the physical security of its data processing operations. Specifically, we found significant
deficiencies in several areas such as the adequacy of facilities, access controls, plans for disaster recovery and continuity
of operations and security training for employees and contractor staff. We recommended that the CDC develop and implement
comprehensive organizationwide policies and procedures regarding security and establish a program to provide appropriate
security awareness and emergency response training to employees and contractor staff.